     Department of Homeland Security

     ��������������������������



        The City of Chattanooga, Tennessee, 

       Properly Accounted For and Expended 

       FEMA Public Assistance Grant Funds 





OIG-14-15-D                           December 2013

                     .•
                     ~   ~ s:
                     ~•• ,rr§
                                   Ol•HCE OF INSPECTOR GENERAL
                                       Department or H(lme\and Security
                                        \Va~hingtcm,   UC 20528 / \\'Vo'W.olg.dhs.gt'\'

                                                DEC l I 2013


MEMORANDUM FOR:                        Major P. (Phil) May
                                       Regional Administrator, Region IV
                                       Federal Emergency Management Agency
                                   "J ,.,A f.lad-4f
FROM:                          j~ John V. Kelly
                             ?'~     - Assistant Inspector General
                                                                        r
                                       Office of Emergency Management Oversight

SUBJECT:                               The City of Chattanooga, Tennessee Properly Accounted
                                       For and Expended FEMA Public Assistance Grant Funds
                                       FEMA Disaster Number 1974-DR-TN
                                       Audit Report Number OIG-14-15-D

We audited Public Assistance funds awarded to the City of Chattanooga, Tennessee
(City) (FIPS Code 065-14000-00). Our audit objective was to determine whether the City
accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to Federal regulations and FEMA guidelines.

The City received a Public Assistance award totaling $25.3 million from the Tennessee
Emergency Management Agency (TEMA), a FEMA grantee, for damages resulting from
severe storms, tornadoes, straight-line winds, and associated flooding that occurred in
April 2011. The award provided 75 percent FEMA funding for debris removal,
emergency protective measures, and permanent repairs to buildings, utilities, and
                                                                                        1
recreational facilities. The award consisted of 111arge projects and 20 small projects.

We audited six large projects ;md five small projects with awards totaling $23.8 million
(see Exhibit, Schedule of Projects Audited and Questioned Costs) for debris removal,
emergency protective measures, and repairs to roads and utilities. We limited our
review of .small projects to determining whether: (1) the City completed the projects,
and (2) another funding source covered the project costs. The audit covered the period
from April 25, 2011, to July 25, 2013, during which the City claimed $23.8 million of
costs under the projects reviewed. At the time of our audit, the City had completed
work on all projects included in our scope and had submitted a final claim to TEMA for
project expenditures.




1
    Federal regulations in effect at the time of the disaster   set the large project threshold at $63,900.
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

We conducted this performance audit between March 2013 and September 2013
pursuant to the Inspector General Act of 1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based upon our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objective. To conduct this audit, we applied the statutes,
regulations, and FEMA policies and guidelines in effect at the time of the disaster.

We judgmentally selected and reviewed project costs (generally based on dollar value);
interviewed City, TEMA, and FEMA personnel; reviewed the City’s procurement policies
and procedures; reviewed applicable Federal regulations and FEMA guidelines; and
performed other procedures considered necessary to accomplish our audit objective.
We did not assess the adequacy of the City’s internal controls applicable to its grant
activities because it was not necessary to accomplish our audit objective. However, we
gained an understanding of the City’s method of accounting for disaster-related costs
and its policies and procedures for administering activities provided for under the FEMA
award.


                                   RESULTS OF AUDIT

The City generally accounted for and expended FEMA funds according to Federal
regulations and FEMA guidelines. However, the City claimed $71,040 of excessive
contract costs (less than 0.3 percent of its total award). Code of Federal Regulation (CFR)
2 CFR 225, Cost Principles for State, Local and Indian Governments, Appendix A, Section
C.1.a., states that costs under Federal awards must be both reasonable and necessary.
We question the $71,040 as follows:

   •	 Under Project 1315, the City claimed $44,353 of excessive fuel costs. The City’s
      Electric Power Board hired several contractors to assist with restoring damaged
      electrical power and fiber optic services. The contractors billed the City based on
      contracted hourly rates for labor and equipment use. One of the contractors
      charged the City $44,353 of fuel cost for the use of 55-foot bucket trucks, pick-up
      trucks, and derrick diggers. However, the contracted hourly equipment rates for
      those pieces of equipment already included the cost of fuel. Therefore, the
      contractor should not have billed the City any additional fuel costs for the
      equipment. We question the $44,353 as ineligible costs because they duplicate
      costs that equipment rates covered.



www.oig.dhs.gov	                                                                    OIG-14-15-D
                                            2

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

       City officials agreed with this finding. They said that their corrective action plan
       will be to implement new internal control procedures to properly review all
       invoices to prevent future duplicate costs.

   •	 Under Project 1312, the City claimed $26,687 of excessive contract labor costs. A 

      contractor billed the City $114,217 of labor costs for debris removal and tree 

      trimming services related to project work. However, the contractor did not bill 

      the City at the contracted hourly labor rates. Based on the agreed-upon rates,

      the contractor should have billed the City $87,530 for labor, or $26,687 less than 

      the $114,217 it billed. The overbilling occurred because the City did not properly

      review the contractor’s invoices for adherence to the contracted hourly rates.

      Therefore, we question $26,687 as ineligible.


       City officials agreed with this finding.



                                   RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $44,353 (Federal share $33,265) of ineligible contract
fuel charges.

Recommendation #2: Disallow $26,687 (Federal share $20,015) of ineligible contract
labor costs.


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with City, TEMA, and FEMA officials during our
audit. We also provided a draft report in advance to these officials and discussed it at
the exit conference held on September 16, 2013. We incorporated comments City
officials provided into the body of this report where appropriate.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include the contact information of responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation.
Until we receive and evaluate your response, we consider the recommendations as
open and unresolved.
www.oig.dhs.gov	                                                                      OIG-14-15-D
                                              3

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are David Kimble, Director; Adrianne Bryant, Audit
Manager; Amos Dienye, Auditor-in-charge; and Jerry Aubin, Program Analyst.

Please call me with any questions at (202) 254-4100, or your staff may contact
David Kimble, Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                                                                   OIG-14-15-D
                                           4

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

                                                                                    Exhibit

                    Schedule of Projects Audited and Questioned Costs
                                             FEMA
   Project                                  Category   Amount         Amount      Federal
  Number              Project Scope         of Work    Awarded       Questioned    Share
  Large Projects:
             Debris Removal –
     351     Public Works Department           A         $631,327            $0         $0
             Debris Removal –
     373     Public Works Department           A         $867,076            $0         $0
             Protective Measures –
     717     Public Works Department           A         $850,107            $0         $0
             Debris Removal – Electric
    1312     Power Board                       A         $904,898       $26,687    $20,015
             Protective Measures –
    1313     Electric Power Board              B        $4,929,038           $0         $0
             Public Utilities – Electric
    1315     Power Board                       F       $15,384,886      $44,353    $33,265
  Small Projects:
             Debris Removal –
      77     Public Works Department           A          $29,752            $0         $0
             Debris Removal –
     714     Public Works Department           A          $61,488            $0         $0
             Protective Measures – Police
     616     Dept.                             B          $53,965            $0         $0
             Road Repairs –
    1237     Public Works Department           C          $53,224            $0         $0
             Public Utilities – Electric
    1245     Power Board                       F           $50,626           $0         $0
  Total                                                $23,816,387      $71,040    $53,280




www.oig.dhs.gov                                                                       OIG-14-15-D
                                                   5
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

                                                                           Appendix

                                  Report Distribution

Department of Homeland Security
Acting Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (G-13-022-EMO-FEMA)

State
Executive Director, Tennessee Emergency Management Agency
State Auditor, Tennessee

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Sub grantee
Audit Liaison, City of Chattanooga, TN

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform


www.oig.dhs.gov                                                              OIG-14-15-D
                                          6

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security
       Office of Inspector General, Mail Stop 0305
       Attention: Office of Investigations Hotline
       245 Murray Drive, SW
       Washington, DC 20528-0305

You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
